<html>
<title> - MEETING FUTURE AVIATION CAPACITY NEEDS IN SOUTHERN CALIFORNIA</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
      MEETING FUTURE AVIATION CAPACITY NEEDS IN SOUTHERN CALIFORNIA

=======================================================================

                                (109-58)

                             FIELD HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                  MARCH 20, 2006 (CORONA, CALIFORNIA)

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


                                   ____

                    U.S. GOVERNMENT PRINTING OFFICE
28-273                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
VERNON J. EHLERS, Michigan           BOB FILNER, California
SPENCER BACHUS, Alabama              EDDIE BERNICE JOHNSON, Texas
STEVEN C. LaTOURETTE, Ohio           GENE TAYLOR, Mississippi
SUE W. KELLY, New York               JUANITA MILLENDER-McDONALD, 
RICHARD H. BAKER, Louisiana          California
ROBERT W. NEY, Ohio                  ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        EARL BLUMENAUER, Oregon
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
GARY G. MILLER, California           BILL PASCRELL, Jr., New Jersey
ROBIN HAYES, North Carolina          LEONARD L. BOSWELL, Iowa
ROB SIMMONS, Connecticut             TIM HOLDEN, Pennsylvania
HENRY E. BROWN, Jr., South Carolina  BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
TODD RUSSELL PLATTS, Pennsylvania    JIM MATHESON, Utah
SAM GRAVES, Missouri                 MICHAEL M. HONDA, California
MARK R. KENNEDY, Minnesota           RICK LARSEN, Washington
BILL SHUSTER, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
JOHN BOOZMAN, Arkansas               ANTHONY D. WEINER, New York
JIM GERLACH, Pennsylvania            JULIA CARSON, Indiana
MARIO DIAZ-BALART, Florida           TIMOTHY H. BISHOP, New York
JON C. PORTER, Nevada                MICHAEL H. MICHAUD, Maine
TOM OSBORNE, Nebraska                LINCOLN DAVIS, Tennessee
KENNY MARCHANT, Texas                BEN CHANDLER, Kentucky
MICHAEL E. SODREL, Indiana           BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania        RUSS CARNAHAN, Missouri
TED POE, Texas                       ALLYSON Y. SCHWARTZ, Pennsylvania
DAVID G. REICHERT, Washington        JOHN T. SALAZAR, Colorado
CONNIE MACK, Florida                 JOHN BARROW, Georgia
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
JEAN SCHMIDT, Ohio

                                  (ii)



                        SUBCOMMITTEE ON AVIATION

                    JOHN L. MICA, Florida, Chairman

THOMAS E. PETRI, Wisconsin           JERRY F. COSTELLO, Illinois
HOWARD COBLE, North Carolina         LEONARD L. BOSWELL, Iowa
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
VERNON J. EHLERS, Michigan           ELEANOR HOLMES NORTON, District of 
SPENCER BACHUS, Alabama              Columbia
SUE W. KELLY, New York               CORRINE BROWN, Florida
RICHARD H. BAKER, Louisiana          EDDIE BERNICE JOHNSON, Texas
ROBERT W. NEY, Ohio                  JUANITA MILLENDER-McDONALD, 
FRANK A. LoBIONDO, New Jersey        California
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
ROBIN HAYES, North Carolina          BILL PASCRELL, JR., New Jersey
HENRY E. BROWN, Jr., South Carolina  TIM HOLDEN, Pennsylvania
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
SAM GRAVES, Missouri                 JIM MATHESON, Utah
MARK R. KENNEDY, Minnesota           MICHAEL M. HONDA, California
JOHN BOOZMAN, Arkansas               RICK LARSEN, Washington
JIM GERLACH, Pennsylvania            MICHAEL E. CAPUANO, Massachusetts
MARIO DIAZ-BALART, Florida           ANTHONY D. WEINER, New York
JON C. PORTER, Nevada                BEN CHANDLER, Kentucky
KENNY MARCHANT, Texas                RUSS CARNAHAN, Missouri
CHARLES W. DENT, Pennsylvania        JOHN T. SALAZAR, Colorado
TED POE, Texas                       NICK J. RAHALL II, West Virginia
JOHN R. `RANDY' KUHL, Jr., New       BOB FILNER, California
York, Vice-Chair                     JAMES L. OBERSTAR, Minnesota
LYNN A. WESTMORELAND, Georgia          (Ex Officio)
DON YOUNG, Alaska
  (Ex Officio)

                                 (iii)

                                CONTENTS

                               TESTIMONY

                                                                   Page
 Kempton, Will, Director, California Department of Transportation     6
 Pisano, Mark, Executive Director, Southern California 
  Association of Governments.....................................     6
 Ritchie, Jim, Deputy Executive Director for Planning and 
  Development, Los Angeles World Airports (LAWA).................     6
 Withycombe, William C., Regional Administrator, Western-Pacific 
  Region, Federal Aviation Administration........................     6

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

 Kempton, Will...................................................    33
 Pisano, Mark....................................................    37
 Ritchie, Jim....................................................    47
 Withycombe, William C...........................................    51

                       SUBMISSIONS FOR THE RECORD

Calvert, Hon. Ken, a Representative in Congress from California:

  February 15, 2006, Letter from Coto de Caza CZ master 
    Association..................................................    61
  April 27, 2004, Letter from Trabuco Highlands Community 
    Association..................................................    64
  December 30, 2003, Letter from Orange County Supervisor Tom 
    Wilson.......................................................    65
  January 4, 2005, Letter from Rep. Ken Calvert and Rep. David 
    Drier to FAA Administrator Marion Blakely....................    66
  Letter from FAA Administrator Marion Blakely to Rep. Ken 
    Calvert and Rep. David Drier.................................    68
  March 20, 2003, Los Angeles Times Article, "FAA Sees No 
    Violations After Gripes About Daredevil Pilots.".............    70

                        ADDITIONS FOR THE RECORD

AirFair, Melinda Seely, President, letter, April 6, 2006.........    59
El Toro Reuse Planning Authority (ETRPA), Chairman, L. Allan 
  Songstad, Jr., letter, April 3, 2006...........................    71
Orange County Airport Working Group, Inc., Tom Naughton, 
  President, statement...........................................    74
Orange County Pilots Association, Fred Fourcher, President, 
  statement......................................................    76
Polaris Group Financial consulting, Robert Rodine, Principal 
  Consultant, letter, March 19, 2006.............................    78
 San Diego County Regional Airport Authority, Thella F. Bowens, 
  President/CEO, statement.......................................    80
California Aviation System Plan--Policy Element, California 
  Department of Transportation, report, February 2006............    84


      MEETING FUTURE AVIATION CAPACITY NEEDS IN SOUTHERN CALIFORNIA

                              ----------                              


                         Monday, March 20, 2006

        House of Representatives, Subcommittee on Aviation, 
            Committee on Transportation and Infrastructure, 
            Washington, D.C.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
City Council Chambers of Corona City Hall, 400 South Vicentia, 
Corona, California, Hon. John L. Mica [chairman of the 
subcommittee] presiding.
    Mr. Mica. Good morning. I'd like to call this hearing of 
the House Aviation Subcommittee to order. This is a 
Subcommittee of the Committee on Transportation and 
Infrastructure of the United States Congress. We're pleased to 
be meeting today in the beautiful city of Corona and their new 
Council, relatively new Council Chambers. We are in the 
District of Representative Ken Calvert, our colleague from 
Southern California. We're pleased to be here and want to take 
just a moment to thank Ken for his hospitality in the City of 
Corona for hosting this hearing on the future of aviation 
capacity in Southern California.
    We're also joined by Representative Campbell. John is a 
fairly new Member of Congress, but represents an adjacent 
District and spent yesterday with him in the air looking at 
some of the aviation infrastructure sites across Southern 
California.
    The order of today's business will be as follows. Our 
Subcommittee has one panel of witnesses. Prior to hearing from 
those witnesses, we'll have opening statements. I'll have mine 
and then I'll yield to our host and also to Mr. Campbell, who 
is a Member of the Transportation and Infrastructure 
Subcommittee. Then we will hear from the panel of witnesses. 
We're not taking public testimony today, however, However, 
anyone who would like to have their statement included in the 
record, an official proceedings of the Subcommittee hearing, 
can do so by request through the Chair or through 
Representative Campbell or Calvert.
    Without objection, we're going to leave the record open for 
a period of two weeks for submission of additional comments or 
testimony and that's so ordered.
     With that, I will start today's proceedings with an 
opening statement that I have and then I'm going to yield to--I 
think I'll yield first to Mr. Calvert, after that, and then to 
Mr. Campbell. Mr. Calvert is our host today, so we'll do that 
in order of seniority and also hospitality. But I'll proceed 
with my comments and again, this hearing, the title of this 
hearing is ``Meeting Future Aviation Capacity Needs in Southern 
California.''
    We meet here today at a very critical time for aviation 
planning and development in the greater Los Angeles region in 
Southern California. The region's airports, taken together, 
make Southern California the busiest of all regions in the 
country in terms of total aircraft operations. Fortunately, the 
Los Angeles basin currently has sufficient, although somewhat 
limited capacity, to meet demand. However, the Southern 
California Association of Governments, also referred to as 
SCAG, which is the federally-recognized metropolitan planning 
organization for the region, they predict that passenger demand 
in the region will more than double to 170 million passengers 
and our air cargo will more than triple to 8.7 million tons in 
the year 2030.
    Additionally, Los Angeles International Airport is, of 
course, the busiest airport within the SCAG region and it's not 
reached its maximum practical capacity, but it will do so by 
the year 2013 at its current growth. In 2004, which is the 
latest FAA data, the passenger activity and numbers at LAX were 
some 57.8 million passengers. Today, I'm told and figures that 
we received from the airport we're approaching in 2005-2006, 
61.4 million passengers per year.
    Local leaders have determined that there should be no 
airport improvements at LAX that would increase capacity beyond 
a 78 million annual passenger total.
    This hearing is not only important to Southern California, 
but it's important to our nation. I always tell folks that if 
we don't have the capacity or the ability to land and have 
planes take off from LAX, that not only does Southern 
California suffer, but the entire air system and air service 
operations of the United States are affected.
    Other airports in the region, and I've had an opportunity 
to visit some of these like Long Beach. Long Beach limits the 
number of flights and they've pretty much maxed out in their 
number of flights' capacity. Burbank, I visited Burbank 
yesterday and we have found that there is some reluctance to 
expanding that airport and growth at the airport by local 
officials. And John Wayne, which I visited in the past, I'm 
told John Wayne has reached 9.6 million passengers annually and 
they have a capacity of 10.3 million passengers. They limit the 
passengers.
    All of these airports can have additional capacity, but are 
heavily constrained by noise limitations, by political 
considerations, and also restrictions on development at those 
airports.
    The Southern California region will be up against its 
maximum capacity limits, unfortunately, in the not too distant 
future. The results, I'm afraid to report, will not be pretty. 
We can expect traffic jams, long passenger check-in and 
security lines, crowded terminals, delayed flights, lost 
baggage, impacts, of course, to runway and passenger flying 
safety, overall increased demand on our national and regional 
air transportation system, and of course, the associate cost to 
airports, passengers and air carriers.
    The economic impact can also be damaging. Jobs, as we know, 
depend on good infrastructure and that infrastructure, whether 
it's airports, roads, ports or transit, are all critical to 
economic development in the future. The good news is that 
unlike other major metropolitan areas in the country, many of 
which are in what we call an air capacity crises mode, the 
Southern California-Los Angeles region has time to plan and 
also to provide for that additional capacity.
    There are some infrastructure improvements in air traffic 
control redesign efforts currently in the works that will help 
partially alleviate some of the capacity demand issues, but 
with no new runway construction plan and limited expansion in 
capacity, delays in the region will worsen over time. It's just 
inevitable.
    I'm told that the local leaders believe a decentralized 
plan for allocation of aviation demand is the solution for 
meeting future aviation demand and that most future airport 
growth should be accommodated at airports other than LAX. And 
of course, today we'll hear what state, Federal, local 
officials propose.
    More specifically, local planners, I'm told, would like to 
maximize the use of airports in the inland empire and also the 
north Los Angeles County area including also careful review of 
former military base use and joint-use facilities. SCAG 
believes that airport development should be focused on the 
under-utilized airports rather than expanding some of the 
existing airports and we'll hear more about that again from our 
witnesses.
    This Subcommittee is responsible for the oversight of a 
safe and efficient national aviation and air passenger system. 
Therefore, we're most interested to hear about the region's 
plans to allocate future aviation demand. Given the 
decentralized approach being pursued, we especially want to 
hear how planners intend to get passengers to go to the 
suburban airports and how passengers will travel to and from 
those airports.
    The Federal Government cannot solve all the problems of 
congestion, whether it's by air, by land, by sea, by itself. In 
fact, we know we need the cooperation of state and local 
governments, as well as all of the communities in the region. 
Congestion and delays in one part of our national air system, 
as I mentioned, ripple throughout the system and cause 
congestion and other delays in parts of the system. Congestion 
also has safety implications.
    Let there be no doubt without adequate infrastructure we 
cannot continue as a region, as a state or as a country to grow 
and prosper. We must also have an aviation regional 
infrastructure in place that's capable of safely and 
efficiently handling double the number of passengers and triple 
the amount of air cargo tonnage in less than 25 years.
    The crunch will be here sooner than we expect and some of 
the solutions and projects will be handled by people probably 
after us, but it's important that we set groundwork like we're 
doing here today. There is simply no other alternative, 
especially if we're to be responsible public officials at all 
levels.
    In this hearing, we hope to better understand the situation 
today and our options for the future. I look forward to hearing 
from our witnesses and I want to thank them for appearing and 
providing testimony today.
    Finally, once again, I'd like to thank the Mayor of the 
City of Corona, Karen Spiegel. I had the pleasure to meet 
Karen, Mayor Spiegel, and the Council, Corona City Council 
Members just before the hearing. And I want to thank them so 
much again for letting us use this absolutely beautiful new 
public facility.
    I'd now like to recognize someone who I have had the 
privilege of coming to Congress with together some 14 years 
ago. It seems just like yesterday, Ken, but he is certainly 
recognized as a leader not only for Southern California and his 
District, but in Congress, has an outstanding career and record 
of excellent representation. I commented to someone, and I'll 
put it in the record today that we conducted a number of field 
hearings and I've chaired two other subcommittees in Congress 
and no one has been more accommodating or helpful, both he and 
his staff, in accommodating our congressional field hearing and 
requests. With that, we're pleased to be in your District and 
I'll recognize Honorable Ken Calvert.
    Mr. Calvert. Well, thank you, John. Welcome to the 
heartland of Southern California, as we see it. When I was born 
in this town there was 7,000 or, 8,000 people. Today there's 
about 150,000 people. So that's somewhat symbolic of what's 
occurring in the Inland Empire and throughout Southern 
California. But certainly welcome, you and your colleagues. I 
hope you enjoy your short time here in California. I commend 
you for your foresight in looking at the aviation needs of 
Southern California over the next 20 or 30 years where we can 
reasonably plan a workable solution to accommodate the expected 
growth in air traffic.
    The need for additional airport capacity is clear. Today's 
hearing should help identify possible solutions and potential 
pitfalls.
    Before we proceed further, I want to thank our host today, 
Mayor Karen Spiegel, and the entire City Council. They're very 
gracious for allowing us to use this facility. They scheduled 
another meeting today in another room so we can enjoy these 
facilities and I think Mayor Spiegel did a great job and I 
certainly thank them for their assistance.
    I have three points, Mr. Chairman, I'd like to stress 
today. First, the process for choosing locations to expand 
airport capacity should be done in a transparent way in order 
to gain public support. We'll hear from many groups with 
diverse opinions. It's always possible that divergent opinions 
will paralyze the situation and even stop any solution. That 
would be unfortunate. But I think opportunities like this will 
help us address future aviation needs.
    Although it's nearly impossible to avoid upsetting some 
communities, I believe it's possible to build confidence in the 
process and establish the broad range of support needed to move 
forward with solutions.
    Secondly, I support the rights of the military to control 
operational use of their facilities. I've supported joint 
military civilian use for air cargo and appreciate the positive 
economic effects that it will continue to bring to the 
community of Riverside and Perris. This agreement works because 
the military identified when it had the capacity, but it was in 
excess of their needs rather than the local agencies 
identifying military land that would be desirable for civilian 
commercial aviation.
    The military, obviously, is a conduit for the benefit of 
our nation. Geography will continue to be a limiting factor in 
how and where our military trains. Additional requirements 
which may be placed on active military installations by civil 
and commercial aviation must not impede the readiness of our 
military services. It is therefore critical that the military's 
mission and existing bases remain the top priority throughout 
the process. While other Southern California stakeholders may 
hold divergent opinions, I believe that the regional 
congressional delegation is united on that point.
    Finally, as air traffic has shifted and shared between 
regional airports, it is vital that surface transportation is 
improved to move people to the airports quickly. Our highways 
are filled to capacity and the intercounty rail system needs 
significant improvement. It is important to understand that 
part of the solution for local aviation is to improve surface 
transportation as well. For this reason, I'm particularly 
looking forward to the testimony by Mr. Will Kempton to hear 
the State's plan to improve surface transportation.
    Again, I thank and compliment you, Chairman Mica, and John, 
my new colleague next door, for coming here today to look at 
this problem first hand. Today's hearing is a critical part of 
the process of building consensus and hopefully we can reach 
consensus on how the region can best absorb 170 million annual 
passengers and 8.7 million tons of annual cargo estimated to 
arrive by 2030. So again, thank you and welcome to Corona.
    Mr. Mica. Thank you again, Representative Calvert. We are 
pleased to be here and your District is California 44, hard to 
believe that you have that many people in Congress, but John 
Campbell is California 48. What are there, 50? Fifty-three, oh 
my goodness. Florida has 25.
    From--as you said, adjoining District has been most helpful 
in our organizing this hearing. We wanted to bring this hearing 
not to the downtown area of say Los Angeles, but to the suburbs 
which can be dramatically impacted by any change in air traffic 
and capacity. We wanted to hold this hearing again in an area 
like Corona or Districts 44 or 48 so that we could hear again 
from people who are in these communities and affected by some 
of these decision.
    And John Campbell, although a new Member, and a Member of 
the Transportation and Infrastructure Committee, has been most 
helpful. He also took me on an air tour yesterday, led that 
effort, pointing out many of the infrastructure sites, not just 
aviation, but also transportation. You get quite a view from a 
thousand feet up. But he's also been very helpful with our 
conduct of this hearing.
    So at this time I'd like to recognize a Member of the 
Transportation and Infrastructure Committee, our colleague, 
John Campbell.
    Mr. Campbell. Thank you, Chairman Mica, and thank you for 
holding this hearing and thank you, Congressman Calvert and the 
officials here in Corona for hosting this as well.
    I'll just make this very brief because I mainly want to 
hear from all of you. Let me say though that I do agree with 
several of the comments made by colleague, Mr. Calvert, both 
relative to the precedence we need to give to military 
operations and to the issue of surface transportation to get us 
to and from whatever airports there are, because whatever 
airports we have that are able to grow, they're not going to 
dot the landscape. There aren't going to be 10 of them or 15 of 
them. There's going to be a limited number of them and we will 
have to be able to get back and forth.
    I was born and raised in Los Angeles and I have lived in 
Orange County now for 30 years, so I've flown in and out of 
every single airport there is in this region many times and I 
also have a pilot's license, although it's not current, so I 
actually have flown in and out of virtually every airport 
general aviation, that accepts general aviation in the Southern 
California area in one point or another and so I thought I'd 
kind of knew an awful lot, but I can tell you the trip we had 
yesterday I learned quite a bit I didn't know. I didn't know, 
for example, that the passenger count at LAX was actually still 
down below what it was prior to 9/11, an interesting thing that 
I hope someone will comment on and address.
    I don't think I was aware of how much military use there 
still was at March Air Force Base when I saw that yesterday and 
I don't think I was aware of just how much future capacity 
there is at Ontario, both in terms of its size and in terms of 
the political will there to have additional airport operations 
and capacity in Ontario. So I learned quite a bit yesterday and 
I'm sure I will learn quite a bit more today.
    Thanks very much for including me.
    Mr. Mica. Well again, I thank our hosts here fellow 
Members.
    We're going to turn now to our panel of witnesses. What 
we've tried to do is we're to hear first from the Federal 
Aviation Administration. We have the Regional Administrator for 
the Western Pacific Region, William C. Withycombe with us. We 
have then from the State level in the California Department of 
Transportation, the Director of that office, Mr. Will Kempton. 
And then from the Southern California Association of 
Governments, also known as SCAG, the Executive Director, Mark 
Pisano. And then from LAX and Los Angeles World Airports 
representing those airports, the Deputy Executive Director for 
Planning and Development, Mr. Jim Ritchie.
    Those will be our witnesses. I thank each of you for 
participating. If you have lengthy documents or background 
information data you'd like to have made part of the record, 
you can do so through request of the chair and that will be 
made part of the official record of today's hearing.
    With that, we'll turn to our first witness, William 
Withycombe who is again the Regional Administrator for FAA. 
Welcome and you're recognized, sir.

  TESTIMONY OF WILLIAM C. WITHYCOMBE, REGIONAL ADMINISTRATOR, 
 WESTERN-PACIFIC REGION, FEDERAL AVIATION ADMINISTRATION; WILL 
  KEMPTON, DIRECTOR, CALIFORNIA DEPARTMENT OF TRANSPORTATION; 
     MARK PISANO, EXECUTIVE DIRECTOR, SOUTHERN CALIFORNIA 
   ASSOCIATION OF GOVERNMENTS; JIM RITCHIE, DEPUTY EXECUTIVE 
   DIRECTOR FOR PLANNING AND DEVELOPMENT, LOS ANGELES WORLD 
                        AIRPORTS (LAWA)

    Mr. Withycombe. Mr. Chairman, Members of Congress, I am 
pleased to join you today in Corona and also to discuss with 
you the aviation issues that I know are important to this 
region. Specifically, you've asked me to update you on the 
FAA's airspace redesign efforts in Southern California and also 
the status of ongoing efforts to reduce runway incursions at 
the Los Angeles International Airport. The FAA is well aware of 
the importance of Southern California to the effectiveness of 
the overall national airspace system. We are working on these 
issues and several others to preserve the safety and efficiency 
that is really critical to not only the citizens of California, 
but the Nation as a whole.
    The airspace over Southern California is highly complex. It 
includes high volume traffic in the north and also in the 
south; military airspace and eight busy airports located in 
close proximity to one another. There are over 2 million 
operations a year in approximately 10,000 miles of airspace. 
Post September 11th, the total annual operations for the region 
remain lower than pre-September 11 operations, specifically 
with respect to the operations of Los Angeles International 
Airport.
    In June 2004, the FAA published a report which is entitled 
``Capacity Needs in the National Airspace System: An Analysis 
of Airport and metropolitan Area Demand and Operational 
Capacity in the Future.'' It identified a need for additional 
capacity in Southern California in the years 2013 to 2020. 
Because the airports in the region are landlocked, the 
opportunity for capacity expansion lies largely in the airspace 
redesign. Unlike other parts of the country where the FAA has 
worked on airspace redesign because of existing congestion 
problems which impact the National Airspace System, this is not 
yet the case in Southern California. Therefore, we have an 
opportunity to get out in front of the problem instead of 
waiting for the situation to develop.
    In order to prepare for the future, the FAA has identified 
four program projects to support anticipated growth: Southern 
California redesign, central California redesign, by to basin 
redesign, and high altitude redesign. For purposes of this 
hearing, I will focus on the planning for Southern California 
redesign.
    The Southern California redesign has three parts that will 
ultimately result in a $4 to $12 million annual savings due to 
reduced delays and additional throughput. The first part of the 
project has largely been completed. It optimizes the departure 
and arrival flows into LAX. In September of 2004, FAA modified 
the LAX departure climb to permit a steady climb to more than 
5,000 feet. This change reduced the number of LAX departure 
transmissions with air traffic control because it was a single 
direction to climb steadily. It also removed an offshore 
conflict with north-south route flown by most general aviation 
aircraft.
    In February of this year, FAA announced that the LAX 
arrival enhancement which became operations later that same 
month, just this past February. The same procedure then applies 
should result in arrivals being quieter, burning less fuel and 
producing less wear and tear on the aircraft involved.
    The second part of the redesign is the actual redesign of 
the airspace. The goal here is to take a ``complete clean 
sheet'' approach, view of the airspace to determine how things 
should look if we were starting from scratch. At the center of 
the redesign would be traffic flow in the Los Angeles greater 
basin. This redesign project is very ambitious and it will take 
several years to scope, design and conduct the required 
environmental analysis and review before implementation can 
take place. As this Committee is well aware, projects of this 
size and sensitivity must achieve industry and community 
consensus in order to be successfully implemented.
    The final piece of the Southern California redesign project 
focuses on arrival enhancements into San Diego. Our ultimately 
goal there is to conduct a more thorough analysis and redesign 
of this complex airspace.
    Turning now to runway incursions, I want to emphasize that 
reducing runway incursions is not just an FAA priority. We have 
been working hard to reduce the most serious runway incursions 
around the country. As outlined in the FAA Flight Plan for 2006 
to 2010, the FAA is developing a range of initiatives from 
airport design concepts to surface movement procedures. We have 
set performance targets and we are holding ourselves 
accountable for meeting those targets.
    To assist us in our analysis and review, we systematically 
categorized each runway incursion and in terms of severity. 
Severity Categories A through D have been established, A being 
the more critical. We considered factors such as speed and 
performance characteristics of the aircraft involved, the 
proximity of one aircraft to another aircraft or to a vehicle, 
and the type and extent of any evasive action that was involved 
in the event.
    Last year, Administrator Blakey from the FAA met with the 
City of Los Angeles and discussed the chronic runway incursion 
problem at Los Angeles International. In fiscal year 1998, 
there were 12 runway incursions at Los Angeles International. 
Since then, we have made some progress. In fiscal year 2000, 
there were 10 runway incursions, 9 in 2003, and 8 last year. We 
see the trend improving, but there is still risk so we need to 
continue to reduce runway incursions at LAX as well as other 
airports around the country.
    Roughly 80 percent of runway incursions at Los Angeles 
occur on the south side of the airport. It is important to note 
that the current airfield layout was designed to accommodate 
aircraft that were in service 40 years ago. The City completed 
Master Plan for LAX identifies changes in the airfield layout 
to resolve this problem.
    On May 20, 2005, FAA issued a Record of Decision for the 
City's Master Plan. The FAA issued grants to the city for 
approximately $68.3 million for the relocation of the southern 
most runway and the addition of a new parallel taxiway at LAX. 
This project is expected to significantly reduce runway 
incursions at LAX. The city has an aggressive schedule for the 
project and should be commended for the vital safety initiative 
and encouraged to expedite the project to the greatest degree 
possible.
    Mr. Chairman, thank you for the opportunity to talk to you 
about these issues. I am happy to answer your questions and 
submit our formal statement.
    Mr. Mica. Thank you, and without objection, your entire 
formal statement will be made part of the record. We'll 
withhold questions until we've heard from all of the witnesses 
and the next witness we'll recognize is Will Kempton, Director 
of California Department of Transportation.
    Welcome, and you're recognized, sir.
    Mr. Kempton. Good morning, Mr. Chairman and Members of the 
Subcommittee. I want to thank you for the opportunity to 
testify today and also on behalf of Governor Schwarzenegger and 
Secretary of Business Transportation and Housing, to welcome 
the Subcommittee to California. I appreciate the Members of the 
Committee to take the time to travel to our State to learn more 
about aviation issues. I also wanted to express our 
appreciation, literally, on behalf of all transportation 
interests in California to the members of our delegation who 
worked so hard with us last summer and into the fall in the 
passage of the Federal Transportation Reauthorizing 
Legislation. I think it's a good sign that Mr. Calvert and Mr. 
Campbell are here today in support of that litigation program.
    And Mr. Chairman, thank you for taking time out of your 
schedule to be here and to listen to our interests and needs.
    California has 254 public use airports and by the way, I'm 
going to give just a brief overview of aviation in California 
and the specifics of some of the local issues that you wanted 
to address will be covered, by Mr. Pisano and Mr. Ritchie. But 
in addition to our 254 public use airports which range from 
limited use landing strips to international gateways such as 
Los Angeles International and San Francisco International 
Airports, those airports are categorized as commercial service 
and we also have general aviation airports, the 29 commercial 
service airports that are divided into large, medium, small and 
non-hub airports or general aviation airports are divided into 
metropolitan, regional, community or limited use type airports.
    In terms of the program, California Department's overall 
goal is to assist in the development and preservation of a safe 
and environmentally compatible aviation system that meets the 
mobility needs of the aviation community , air travelers and 
the public. The Department responds to aviation issues through 
its Division of Aeronautics. Under State law, the Division's 
primary roles are to encourage private flying and the general 
use of air transportation, to establish essential regulations 
to enhance safety, capacity and the capability of the State's 
Air Transportation System, and to foster the development of a 
stable and efficient regional air carrier system.
    Additionally, the Division is responsible to assure that 
people residing near airports are protected to the greatest 
extent possible against aircraft noise and to develop 
information and education programs to increase the public's 
understanding of current air transportation issues.
    In terms of our future aviation demands, California is a 
vibrant and growing State. By 2030, the number of California 
residents is expected to go from 37 million people today, to 
nearly 50 million population which is an increase of almost one 
third. The State accounts for 15 percent of the nation's gross 
domestic output and this framework of growth and economic 
success is reflected in our aviation system which will play an 
increasingly important role to fulfill its regional demands of 
the State's population.
    Air transportation, which increasingly relies upon small 
and medium-sized airports has to become more effective and 
efficient in serving the mobility needs of our decentralizing 
population. Overall, future demands of passenger and air cargo 
service is expected to increase significantly and you'll hear 
all sorts of statistics today. But in general, the State trend 
appears to be a doubling of passenger growth and a tripling of 
air cargo over the next three decades.
    The State has been working to accommodate this growth in a 
collaborative effort with regional and local and State 
agencies, along with our Federal partners. California has 
converted several of its closed Air Force Bases to cargo hubs 
providing needed capacity. An example is the former George Air 
Force Base in San Bernardino County which is now known as the 
Southern California Logistics Airport. And I don't know if the 
Subcommittee has had a chance to visit that airport, but I 
would encourage, if at all possible, that you do so.
    Sacramento has also experienced success with its conversion 
of Mather Air Force Base from military use to a metropolitan 
public use network. Other airports are also looking at means to 
expand capacity. Los Angeles World Airports have developed a 
plan to increase its capacity to reconfiguring its runway and 
through various terminal improvements. The Los Angeles region 
has also examined additional passenger service capacity in 
Palmdale and Ontario and I think you will hear more about those 
initiatives from Mr. Ritchie and Mr. Pisano.
    There are other locations with limited capacity and some of 
those locations face some serious limitations. I understand 
you're going to be in San Diego tomorrow for a meeting with the 
local airport authority. You're going to hear about some of 
those limitations as they face the capacity constraints that 
exist at Lindberg field, looking for places, locations to 
expand. And that includes the need for ground access and 
connectivity.
    Regional planning agencies in the State have been hard 
pressed to keep up with the necessary ground access to ensure 
the efficient movement of goods and people. Airport capacity 
requirements and the movement of people to less populated areas 
require the State and region to coordinate ground 
transportation network improvements to ensure intermodal system 
connectivity.
    Surface transportation system congestion adjacent to 
airports causes delay for passengers and goods and that 
negatively impacts the State and national economy. The Governor 
recently proposed a strategic growth plan which calls for a 
$107 billion investment in transportation infrastructure over 
the next 10 years with a goal of reducing congesting in that 
10-year time frame to levels below what is occurring today. 
That congestion reduction is going to be vital for the State's 
economy to continue growth. It's certainly going to be vital to 
ensure that we have the capacity and the interconnectivity of 
our airport system.
    The infrastructure bond package that was previously, just 
recently before our State legislation was not approved for the 
June ballot, but there is a proposal still under consideration 
and we are hopeful that it will be placed on the November 
ballot.
    California general aviation airports are stressed to meet 
the existing demand and also to provide security upgrades for 
the users of the system. There's a strong focus on increased 
security, obviously, in this post-9/11 environment. The result, 
however, is that security improvements are now competing with 
capacity improvement and small airport capital programs and 
funding is not keeping up with demand.
    In addition, encroachment by incompatible land uses 
approved at the local level have forced several smaller 
airports to close at a time when the increasing amount of 
corporate aircraft is driving up the demand for the services 
and conveniences that are provided by general aviation fields. 
In fact, encroachment due to incompatible land use is the 
greatest threat to increasing capacity and capability and 
preserving the viable aviation system for future generations.
    The goals for the California aviation system are to improve 
the safety and effectiveness of California's general aviation 
transportation system. The Department has worked closely with 
its aviation stakeholders to develop a system plan for this 
purpose. The plan is guided by the following goals that address 
the challenge to the continued viability of the State's 
aviation system.
    These goals are to continuously improve operational safety 
at airports for users, workers and nearby residents and 
businesses; to maintain and expand general aviation airport 
capabilities and system capacity; to improve delivery of State 
aviation products and services; to product compatible land uses 
around each public use airport and to preserve previous 
aviation system investments.
    In conclusion, it is imperative that California airports 
continue to receive Federal support to fully fund the Federal 
Aviation Administration's Airport Improvement Program. This is 
a main source of funding for major airport infrastructure 
improvements. The State also needs more flexibility and Federal 
funding to provide for ground access improvements to the 
airports. We also need funding support for system planning so 
that our State-wide system operates more efficiently.
    We need to--another program that's important to the State 
is the Small Community Air Service Development Program and last 
year a partnership of 14 small airports from Arcata to Imperial 
Counties are using this program to work together to improve air 
service.
    It is an effective tool for stimulating air service in 
rural areas that are beginning to see the impacts of population 
growth. As our population shifts from the urban areas to those 
rural areas, and you see the increased need for air service to 
those more rural regions.
    As passenger and air cargo volumes grow and decentralize, 
airports are challenged to expand to accommodate the demand of 
California's aviation system. While aviation planning has taken 
place on the state and regional levels, many local airports 
face challenges just to maintain their facilities. The 
inevitable need for increased airport capacity due to growth in 
air travel is an issue that affects policy makers, planners and 
airport administrators throughout California. The Department 
will continue its work with our aviation partners and looks 
forward to continued Federal support and presence to help 
address the needs of the Air Transportation System in 
California.
    I do again want to express my appreciation for the 
opportunity to make these brief remarks. I would like to now 
have my testimony entered into the record and I have some 
additional information here in terms of our California aviation 
system plan, that I would like to also submit to the 
Subcommittee.
    Mr. Mica. Thank you for your testimony and also without 
objection your entire statement will be made part of the record 
and we will also refer in the record to the documents presented 
to the Subcommittee after your testimony.
    Again, we'll withhold questions until we've heard from our 
witnesses.
    Our next witness is the Executive Director of the Southern 
California Association of Governments, SCAG, and that's Mr. 
Mark Pisano.
    Welcome, and you're recognized, sir.
    Mr. Pisano. Thank you, Chairman Mica, first of all 
conducting this field hearing on an issue of absolute critical 
importance to the country, namely how does our aviation system 
enable this country to participate in increasingly global 
economy in a global world and it's aviation, the major mode 
that we focus on in this century because of that fact.
    Let me also thank the Representatives from Southern 
California. I want to echo Will Kempton's comment on thanking 
you for your support and participating in the reauthorization 
and also for your upcoming involvement in the reauthorization 
of the Aviation Trust Fund.
    Let me begin by noting that the region that you're in, the 
region that we plan for, if it were a separate economy, if we 
were country, we would be the tenth largest economy in the 
world. Let me also note that we're one of 10 large regions that 
are experiencing explosive growth in the United States. It is 
forecasted that almost two-thirds of the population and 
employment growth in this country over the next 40 to 45 years 
will occur in 10 large regions that comprise approximately one 
third of the land area of the United States. The rest of our 
country will either experience declines in population and 
employment or a flattening of population and employment. And 
these 10 regions are regions that have global ports and 
airports and teleports.
    Let me also note that this region has the largest import/
export percentage of any region in the country, the second 
largest region, New York, we have a 22 percent greater amount 
of import/exports in this region.
    And finally, the value of the exports that leave our 
airports is greater than the value of goods that leave our 
ports. The airports really do form the basis and support of the 
economy of Southern California.
    We have six--currently we have six established regional 
airports. They are John Wayne, Long Beach, LAX, Burbank, 
Ontario and Palm Springs. Four of those airports that are in 
the urban area, namely John Wayne, Long Beach, LAX and Ontario, 
if you look at the footprint of those airports you will find 
that they comprise about 5,500 acres, which is substantially 
less than the 34,000 acres that surround the Denver airport and 
the 7,700 acres that are in the Chicago airport. The majority 
of our airports in the urban area are highly constrained and 
impacted and as a result there has been a regional policy of 
encouraging and using the outlying airports, four of which are 
in the process of developing.
    As Representative Campbell noted, we have 45 general 
aviation airports and general aviation has been an important 
part of the culture, history and future of Southern California.
    Currently, the population of the region is about 18.2 
million people, forecast to go by the year 2030 to 23.9 million 
people. Even though the growth rate is not the highest, we're 
one of the largest growing regions, as I pointed out earlier in 
the United States.
    In terms of air passenger, the forecasts have already been 
cited. Going from 90 million annual passengers to 170 and 8.7 
million tons of freight.
    The dilemma that we have face within the region is best 
shown in this next slide. The majority of the people who will 
grow in the future are located in the western part of our 
region for several factors. One, disposal income; secondly, the 
economic base of the western part of our region, mainly, trade, 
tourism, entertainment, business services and high tech are 
generally the industries in which the employees travel. Now as 
I pointed out, the future is that we will be relying 
increasingly on airports to the east and to the north within 
our region. And that creates some unique problems, as well as 
some opportunities for this region.
    The strategy that the region adopted, we adopted this in 
our 2001 transportation plan and it was reinforced again in our 
2004 transportation plan and before you is a one page summary 
of the content of that plan is to use the outlying airports. 
Now the basic concept behind the plan that we adopted is the 
outlying airports have existing runways and existing terminals. 
And this may sound odd, but for a modest investment of about 
$6.3 billion, we can have--we have calculated and we have in 
this calculation the partnership of all these airports, we can 
add 80 million annual passengers of capacity with that amount 
of investment on the outside facilities.
    The dilemma, however, is how do we provide access to where 
the people who really do fly the most, how do they get to those 
particular airports? By the year 2030, the demand in the region 
will still be--the Los Angeles County will comprise 61 percent 
of the passenger demand and Orange County 22, with Riverside, 
6; San Bernardino at 9 percent and Ventura, 3 percent. The 
basic strategy that we've adopted is to use the outlying 
airports, mainly Ontario and Palmdale to take the majority of 
the demand off of LAX and to rely on a ground access system to 
those airport, both short and long term.
    In the short term, we're planning to take the highly 
successful program of flyway systems that LAX demonstrated and 
Jim Ritchie will talk more about the success of that flyway 
program to bring passengers not only to LAX, but also to bring 
them to Ontario and Palmdale. How? Basically, relying on the 
HOV system. In the short term, the regional plan would suggest 
that we have flyway programs that would use an HOV system that 
we currently are completing out to Ontario as well as to 
Palmdale. We still have some investments and gaps that we have 
to construct a union station and we have a gap that we haven't 
yet finished that would bring passengers into the Palmdale 
airport. But between now and the year 2015, 2020, the basic 
concept would be to use the flyway system using the HOV 
systems.
    And in the next map I will show how we plan to complement 
that system to the rest of the region, primarily to Orange 
County and also to complete the system in San Bernardino.
    In addition to the short term, we're suggesting that the 
metro line system that parallels the line going to Ontario be 
used to access Ontario and that the light rail systems be 
completed going into LAX and also to Burbank.
    In the longer term, what we're proposing is a higher speed 
system be constructed that would access the airports of Ontario 
and Palmdale and I would like to speak to the reasons for the 
reliance on a higher speed system. If we rely simply on the HOV 
and bypass lanes to the flyways to the Ontario and Palmdale 
airports, because of the time required to get to the airport, 
we are forecasted by the year 2020 that we will be able to 
increase Ontario to about 18 million annual passengers, and not 
reach capacity and furthermore that Palmdale would go from zero 
to 3 million annual passengers by the year 2018, 2020, with an 
HOV system.
    If we were to develop high speed system and we are 
developing, modeling the analysis, we've done preliminary 
feasibility studies on these various lines, we are forecasting 
that Ontario would, in fact, rise to a 30 million annual 
passenger which would be at its capacity and furthermore, we 
would anticipate that San Bernardino International, which is 
located in the City of San Bernardino could also increase to a 
10 million annual passenger airport. And the Palmdale Airport 
could reach between 15 and 17 million annual passengers if it 
had high speed access.
    The challenge on the high speed access is in fact how do we 
finance it? The region is proposing that we finance the system 
based on a business model, that is if the various component 
price of the system is used, that system would in fact pay for 
it. In the feasibility studies that we have conducted, and the 
business plan that we are now just finalizing point out such a 
financing strategy. The basic uses of the system would be 60 
percent of the passengers would be computer. Another 10 percent 
would be special event utilization. Goods movement would be 20 
percent and finally the passengers at airports would be 
anywhere from 10 to 15 percent.
    The challenge is how does the aviation system participating 
in such a system, both the expansion of the airports, as well 
as the crowd access system. In that respect, we make five 
recommendations to the Committee for you to consider as you go 
through the reauthorization of the Aviation Trust Fund to help 
the region and we believe the model that you see here could be 
employed in the other large regions within this country.
    The first is the Aviation Trust Fund be funded at an 
adequate level to carry out the role that aviation is going to 
be needed to play in the century we're now entering, that we 
have to recognize and we have to fund to the level of 
importance that the aviation sector will play in the future.
    The second is that we move to a performance-based system on 
how we make decisions and how we operate airports within our 
country and basically translating that into our region, if 
we're able to add the amount of capacity that we can within the 
outlying areas for the levels of investment, we believe it's 
extremely cost effective to use a full regional system as 
opposed to putting more and more passengers in an impacted 
urban area that if we found and that the plans at our various 
airports have developed to be very expensive and not cost 
effective.
    The next feature would be that we allow the Aviation Trust 
Fund to participate in the ground access systems up to the 
proportional use of those systems, where there is an absolute 
nexus between the ground transportation investment and the 
expansion of that airport and when you put the two cost streams 
together, we're absolutely convinced in our region that it 
would be a cost effective system.
    The next provision is that, in fact, as we look at the 
NPIAS system, the Federal system that we look at regional 
components of that system and not on an airport by airport 
basis, that in large systems and in the other nine regions and 
I've worked with my colleagues in those regions, they have very 
large numbers of airports that could comparably be used to a 
type of system that we're looking in Southern California.
    The last provision is that funding for aviation and landing 
fees for aviation be based not just on the weight of aircraft, 
but also on the air quality and on the noise impacts that they 
have on communities. We feel that such a financing system would 
one, help us to distribute demand within our region and further 
more we felt this to meet some of the air quality requirements 
that the aviation system is confronted.
    And I would just note in our region that the new standards 
being proposed in the air quality, in our air quality plan by 
our Federal EPA of 2.5, that that small particulate standard is 
directly related to the nitrogen and oxides that do come from 
aircraft, so the ability to finance based upon impacts, we 
believe, will distribute demand.
    Let me conclude by noting that partnerships in conducting 
an aviation system is absolutely essential. First of all, let 
me just note, part of our large regional assessment is San 
Diego County. We currently handle about 20 percent of their 
passenger needs and two-thirds of all their goods movement are 
handled out of regions, out of airports within our region. 
Developing stronger relationship and working partnerships with 
San Diego is important.
    The next partnership is the airports within our region. 
We've invested in a management study. A copy of that management 
study is in this one-page summary in your package. The basic 
recommendation of that study is that a regional airport system 
acts as a consortium and then developing Memorandum of 
Understanding and agreements with other airports so that we can 
develop the kind of regional system that we're talking about 
today.
    Another component is we currently are doing what is called 
a local reading study as part of the high definition study so 
that we can look at how airports operate within our region so 
that the way the airports operate is compatible with airspace 
utilization, ground access utilization and the operation of the 
airports themselves. Looking at aviation as a system linked to 
growth, economic development, ground access, air quality and 
airspace that we can solve that we're confronted and with the 
recommendations that we've cited today, we believe that it can 
be incorporated into the Federal structure it will help us to 
accomplish our objectives.
    Let me conclude by stating that I have a larger summary of 
my testimony as well as the slide show and I ask that that be 
incorporated into the record. Thank you.
    Mr. Mica. Without objection, we will include your entire 
statement and the slides and other information provided and we 
have one additional witness, Mr. Jim Ritchie, who is the Deputy 
Executive Director for Planning and Development with Los 
Angeles World Airports.
    Welcome, and you're recognized, sir.
    Mr. Ritchie. Good morning, Mr. Chairman and Members of 
Congress, thank you for the opportunity to be here today. I'm 
here on behalf of my Executive Director, Lydia Kennard, who 
unfortunately couldn't and she has her Board of Airport 
Commissioners meeting today to address.
    Nonetheless, I would like to provide a summary of a more 
lengthy testimony that I have provided to you earlier.
    In the Los Angeles area, there is a consensus that a 
regional solution to air service demand is required, but as of 
yet there has been no effective, coordinated plan put forth to 
implement such a strategy. Los Angeles World Airports, a 
department of the City of Los Angeles, which owns and operates 
four airports, LAX, Ontario International, Palmdale Regional 
and Van Nuys General Aviation Airport, has been actively 
addressing the forecast that we're well familiar with on 
regional demand through a variety of planning and modernization 
initiatives.
    I'd like to go over a few of those with you, if I may. In 
the recently approved Master Plan, LAX will be designed to 
accommodate an additional 17 million passengers over today's 
figure of 61 million annual passenger. Congressman Campbell, 
you are correct, an all time high in the year 2000 was 67 
annual passengers and our return from that level of activity 
has been slow. It's been not as fast as we would have 
anticipated. Domestic is moving a little slower than 
international growth, by about 5 percent.
    We certainly understand the finite limits to growth at LAX 
and we will encourage the remaining regional airports to absorb 
the other 60 plus million annual passengers over the next 20 
years.
    Realizing that LAX is currently handling a disproportionate 
share of the aviation demand, Los Angeles World Airports is 
doing all we can to plan for and encourage growth at our other 
airports. Our first step and you saw part of it yesterday is 
the regional focus on Ontario International Airport, really our 
crown jewel in the inland empire. With its state-of-the-art 
facilities that opened in 1998. Ontario International Airport 
currently has excess capacity and support for additional 
growth. In 2005, Ontario International Airport set a record 
exceeding 7 million annual passengers which was a 4 percent 
increase from last year. And this year represents 8 percent of 
the regional market.
    Other significant statistics for Ontario include an average 
of 108 daily passenger flights, more than 12,000 passengers 
monthly traveling to and from Mexico and Ontario International 
Airport is comparable to other international airports the size 
of San Antonio and Austin.
    Ontario International Airport is the fifteenth busiest 
cargo airport in North America with more cargo traffic than 
Philadelphia and nearly as much as San Francisco. Our goal is 
to contribute to the region's demand by growing this airport to 
a goal of 30 million annual passengers from 7 million annual 
passengers today.
    Palmdale Regional Airport, our third commercial airport, is 
located on an attractive 17,000 acre parcel in the Antelope 
Valley that presents unique challenges to the distance and 
accessibility to that airport. Today, there is no commercial 
service despite the recent Scenic Airlines efforts to Las Vegas 
that ended in January of this year. Regardless, we remain 
active in seeking air service providers and have development 
plans that will accommodate growth from 2 to 12 million annual 
passengers a year.
    Van Nuys Airport, meanwhile, continues to support a large 
volume of general aviation traffic which otherwise would flow 
into a number of commercial airports to include Bob Hope 
Airport in Burbank, Ontario and of course, LAX. The Van Nuys 
Master Plan was recently approved by the Los Angeles City 
Council in September of last year. The intent for Van Nuys is 
to become a more community-sensitive aviation facility, while 
at the same time serving as a reliever facility for general 
aviation in the Southern California region.
    A key component of our recent lawsuit settlement agreement 
at LAX was the reinforcement of our commitment to regionalism. 
Mayor Antonio Villaraigosa stressed this regional emphasis and 
the Los Angeles City Council gave final approval to the 
settlement agreement in early 2006 following approval by the 
city councils of Culver City, El Segundo, Inglewood, the County 
of Los Angeles and the Alliance for a Regional Solution to 
Airport Congestion.
    Nonetheless, considering the jurisdictional limitations of 
Los Angeles World Airports, we welcome the opportunity to take 
a leadership role with other airports, agencies and communities 
to provide a balanced aviation demand within our region.
    Thank you very much and I await your questions.
    Mr. Mica. Thank you and I thank all of our four witnesses 
for their testimony today and what we can do is just get right 
to some questions and I have a few for our witnesses and I'll 
see if the other members have questions that follow.
    Mr. Withycombe, you stated that we have redesign of 
airspace in Southern California underway. It's my understanding 
that that redesign, the two redesign projects are both behind 
schedule. Do you have any information on what has caused the 
delay or a new time table?
    Mr. Withycombe. Yes sir. We are obviously looking at the 
issues of continued airspace redesign and that is still an FAA 
priority. However, I understand that the air traffic 
organization that is the parent organization that handles 
airspace redesign has temporarily halted the activity that was 
due to, as I understand, budget constraint.
    The schedule for that is not currently available. From what 
I understand it is still a priority which the FAA is not going 
to defer for a lengthy period of time, but it is under 
consideration right now to hold that project until budget funds 
are available.
    Mr. Mica. Could you give us some idea what it would take in 
funds to complete that work?
    Mr. Withycombe. I do not have those numbers available.
    Mr. Mica. Could you supply them as far as your guesstimate 
to the Subcommittee?
    Mr. Withycombe. Yes, we can.
    Mr. Mica. We appreciate that. You testified that some $68 
million was made available to LAX. We've had--well, first of 
all, you have to deal with trying to have airspace and safety 
issues resolved and planned for for the future. But in the 
meantime, even with a reduce number of passengers, what are we 
on flights, as far as backed up flights, Mr. Ritchie at LAX? 
You testified that passengers are still down, I guess it was 67 
was your max.
    Mr. Ritchie. Correct.
    Mr. Mica. What about flight movements?
    Mr. Ritchie. From 2200 operations with the goal of 2250 
being our maximum, but we're currently running in the 1800----
    Mr. Mica. So you have actually fewer flights than you had 
before including passengers. Passengers, we know are less 
flights, so the number of incursions that we've had may not be 
down too much. I think you testified Mr. Withycombe about 12, I 
heard, and then down to 8. Is that correct?
    Mr. Withycombe. Yes sir.
    Mr. Mica. OK.
    Mr. Withycombe. That was eight last year. Currently, at 
this particular point in time we have reported two.
    Mr. Mica. Well, of course, incursions get people's 
attention. We've certainly had that attention in the last few 
months. I know we had one close call recently. We have not had 
a major aviation crash, passenger airline crash or incident 
where lives have been lost on the ground for almost four years 
now. But my concern is that we're meeting also the current 
needs.
    You said that $68 millions in a grant was given to LAX, 80 
percent of the problems we've experienced have been in the 
south side.
    Mr. Ritchie, what's the status of improvements to deal with 
sort of our most prone area for incursions?
    Mr. Ritchie. Mr. Chairman, that is the South Runway 
Improvement Program. That's a project that is underway thanks 
to the support of FAA. We're mobilizing a construction team. We 
expect to shut down the south runway in July as we commence 
construction incidental to movement south.
    Mr. Mica. So that's underway. When would that be complete?
    Mr. Ritchie. It will start in July and be closed nine 
months, under two years.
    Mr. Mica. OK. That will also limit some of the air 
movements, is that correct?
    Mr. Ritchie. Yes sir.
    Mr. Mica. But under a bit of a crunch. OK, and the $68 
million, the Federal $68 million and whatever else is involved 
does cover the expense for that safety improvement?
    Mr. Ritchie. Yes sir. It's a contribution. The total 
project is around $280 million.
    Mr. Mica. All right. I'm not sure if I understand some of 
the numbers. The testimony we had from the SCAG said we're 
going to double our passenger demand and passengers to 170 
million in 2030. It sounds like we're at 61 at LAX with the 
possibility of going to 78. Is that correct, Mr. Ritchie?
    Mr. Ritchie. Yes.
    Mr. Mica. OK. John Wayne was 9.3 and they have a cap of 11 
something. I think that's--Mr. Pisano, is that approximately 
correct? And they're filling up quickly.
    Mr. Pisano. That is correct.
    Mr. Mica. And then Long Beach is like trying to get 10 
pounds of potatoes into an 8 pound sack. I've been there and 
I've seen that. They have a maximum n umber of flights and 
we're pretty much maxed out on that, aren't we, Mr. Pisano?
    Mr. Pisano. Yes, we are.
    Mr. Mica. And Burbank did not see people with open arms 
begging me and Mr. Campbell to bring more flights in there 
yesterday. But they even have limited capacity, so even if we 
take the numbers from Ontario and we're at 7 and you've got a 
potential of 23 and we packed a few more people in Palmdale and 
others, my numbers don't add up, Mr. Pisano, to the 170 million 
or doubling the passenger count, not to mention tripling the 
cargo.
    Mr. Pisano. Mr. Chairman, there are a number of other 
airports in the regional system; San Bernardino International, 
previously Norton Air Force Base needs to be added to that 
system.
    Mr. Mica. Do you have--I don't see a plan here with the 
numbers that we're going to put it, that would fill out this 
regional aviation plan. Is that available?
    Mr. Pisano. Yes, it is. It's a table in the regional 
transportation plan that must be forecast which are the 
policies of the region for all the airports.
    Mr. Mica. And does that match us to the----
    Mr. Pisano. It matches to the 170.
    Mr. Mica. And cargo?
    Mr. Pisano. Southern California Logistics Airport long term 
would be able to also support passenger service. And then Palm 
Springs Airport, we believe, can go to higher than the current 
utilization at that particular airport. When you add them all 
together, we have the capacity for 170 million passengers and I 
would also note that we're working with Imperial County. 
There's an airport in Imperial County that can be developed 
with ground access. Imperial County could be an important 
component of both our region, as well as the San Diego region.
    Mr. Mica. One of the keys to your plan was having adequate 
transportation to and from some of these outlying new capacity 
airports. What kind of dollar figure are we looking for those 
kinds of improvements?
    Mr. Pisano. The mid-term strategies of flyways with HOVs, 
the HOV system we currently have programmed most of those 
improvements within the region. There are some gaps, 
particularly the downtown LA gap. In terms of the HOV system 
that comes up from the Harbor Freeway into downtown, that HOV 
system would need to be connected to the northern HOV system 
and that would be an expected gap to fill.
    Mr. Mica. Now is most of that reliant, Mr. Kempton, on the 
$107 billion, at least in the near term, improvement package?
    Mr. Kempton. Mr. Chairman, the $107 billion for the next 10 
years included $22 billion for completion of the system's 
statewide; round numbers, if you took 60 percent of that for 
the Southern California area would give you some indication of 
what kind of investment would be necessary in this region to 
complete that system and we would agree with Mr. Pisano's 
assessment of the short-term solution in terms of providing for 
that type of connectivity. The HOV system would be a good 
base----
    Mr. Mica. So that's only really a fraction of what it's 
going to take to get the infrastructure to support these new 
capacity locations, is that correct?
    Mr. Pisano. When you throw in rail and particularly the 
high speed connections in the future, there will be substantial 
additional amount of investment required.
    Mr. Kempton. Mr. Chairman, we have asked that the high 
speed investment that we would need in the region would be $18 
billion and we look at a proportionate use system on aviation, 
somewhere between 10 and 15 percent of that particular 
investment would enable us to flesh the system out. That does 
not include and I did not show a slide that the rest of the 
regional system, particularly that connecting the Orange County 
area with--through Corona to Ontario. I can display that slide, 
if you wish, but it does not include the investment for that 
line. The reason it does not include the investment is we have 
not yet done a feasibility study in both a financial as well as 
a business plan for that particular line. That work is underway 
right now and will be completed in time for our transportation 
plan update which will be next year.
    Mr. Mica. I think the key to the plan that has been 
proposed to decentralize and disperse some of the future 
aviation solution is to access conveniently some of these 
outlying airports.
    We're not only busted in the Aviation Trust Fund, we're 
also broke in the Highway Transportation Fund at the Federal 
level. And one of the things that we've done--well, two 
policies we have working against us is that we, first of all, 
we base our highway, Federal gas tax on 18.4 cents a gallon on 
a gallon basis. Cars are required to go further every day. I 
think the fleet gets a little bit more efficient. They do go 
further, even though some of the standards haven't been 
dramatically increased. And I guess $4 out of every $5 is now 
used after we put $1 in for construction, we need $4 to 
maintain the roads. That's a strain when they're going further 
and paying.
    Also, with energy policy at the Federal level and 
particularly here in California, they require use of more 
alternative fuels for which we have a lower tax rate. So our 
fund is down. Same thing is, well, a similar situation with the 
AIP Fund. Most of that comes in from a passenger ticket tax and 
we have actually reduced the average cost per ticket with the 
evolution now to more discount and low cost carriers. Both of 
those funds are depleted. You recommended partnership, some 
changes in financing.
    What's your plan or do you have anything specific as to how 
we raise more dollars if you want to, again, more Federal 
dollars available. We have to have some way to raise them.
    Mr. Pisano?
    Mr. Pisano. Mr. Chairman, you have posed the most serious 
problem facing the transportation community, namely, the 
finance structure and the plan that we have put forward in this 
region, and let me just note the capital investment plan, the 
total for this movement for airport access, for completing our 
highway HOV system and to install the transit systems that we 
need in our region is $96 billion. Our current flow of funds 
from gas taxes, State and Federal, and let me note the most 
important funding source in this region are local sales taxes, 
a portion of which are dedicated to fund transportation. 
Currently 70 percent of all of our transportation expenditures 
comes from local sales tax, certain self-help taxes within our 
region, but that system is now beginning to bump up its 
financial limit.
    Therefore, the $96 billion we anticipate, the $30 billion 
will come from sales taxes. These are real constant dollars, 
not future dollars. $32 billion will come from sales taxes from 
our self-help, as well as from gas taxes, State and Federal. 
And the remaining monies, namely $64 billion will come from, 
we're suggesting be the future foundation of transportation 
funding, namely revenue taxes that can be supported by users.
    Let me state why we feel that that funding system is 
possible in the future. One, technology has allowed us 
transponders and information systems to be able to have 
segmented funding streams that can be associated with 
individual projects. Secondly, this region demonstrated in the 
last 20 years that the Alameda corridor being our first project 
and then a number of corridor projects in Orange County in 
Congressman Campbell's order, that this funding strategy can 
and does work. And therefore, we're proposing that in the 
future that revenue tax systems be the basis for the majority 
of our investments.
    In that respect, we thank Congress for the tools such as 
TIFICA, Transportation Infrastructure Financing Investment Act. 
We think that that instrument needs to be expanded and further 
developed.
    We urge the State to include design/build and private/
public partnerships in State legislation, be it the bond 
legislation that's under consideration or in the future so that 
we have the instruments to enable us to fund these investments.
    And let me conclude by noting the majority of our 
investments being made at airports is done through this form of 
procurement and partnership. And the airport system, at least 
in our region, has demonstrated that that funding approach is 
feasible.
    If we can, in fact, create those types of partnerships in 
the future, and those revenue streams, Mr. Chairman, we can 
keep up with the--we can deal with the demands in our region, 
particularly in aviation access and this movement in 
distribution in and access to airports.
    Mr. Mica. I thank you for your response. Let me yield first 
to our colleague, Mr. Campbell and then we'll go to Mr. 
Calvert.
    Mr. Campbell.
    Mr. Campbell. Thank you very much, Mr. Chairman. A couple 
of questions for whoever frankly wants to answer them. First 
is, the first series of questions relative to understanding the 
growth a little better. We talked about LAX count being down 
slightly since 9/11. What has happened to the passenger count 
for the total region, for all six airports in that nearly five-
year period? Does anybody have that?
    I thought someone said it was down as well. Did you say 
that, Mr. Withycombe?
    Mr. Withycombe. Yes sir, I did. The count, obviously, went 
from a high of around 68 million annual passengers down to what 
it is today, about 61.
    Mr. Campbell. That's LAX?
    Mr. Withycombe. That's LAX.
    Mr. Campbell. I'm talking about all six regional airports 
addressed together. Mr. Pisano?
    Mr. Pisano. The actual utilization at our other airports is 
down. Ontario has increased by more than a million annual 
passengers. Burbank, Long Beach, John Wayne, have all 
experienced increases and we're just about--we feel that the 
year we're now in, we will be at the level that we were prior 
to 9/11 when we had all the increases at the outlying airports 
and make the adjustments at LAX. I think the report that I 
received is that this year, 2006, will get our--the same level 
we were previously.
    One of the primary reasons is there's been more attrition, 
given the security issues. You go to some of the outlying 
regionalized airports and then secondly our international, as 
Jim Ritchie pointed out, our international utilization, both 
for passengers and particularly for goods is up.
    Mr. Campbell. I guess my question and we obviously want to 
be prepared, we don't want to miss this on the low side, but 
during that five-year period from 2001 to 2006, the region has 
experienced population growth, considerable economic growth, 
growth in just about every factor. So if in a period of 
population and economic growth we've seen zero growth in 
passenger air travel, why are we expecting a doubling? What do 
we think is going to change that's going to, from what's 
happened in the last five years, is going to happen in the next 
15 that's going to greatly accelerate passenger air travel 
growth relative to population and economic growth?
    Mr. Pisano. Let me begin and I'll ask my colleagues to add 
to the explanation and that is in the last several years we've 
had an adjustment to a security system that added 
inconvenience, that cost other difficulties to the passenger 
and we now have implemented a system of security that is more 
efficient. It's not necessarily at the pre-9/11 level of 
efficiency of getting through airports, but our traveling 
public has now become let's say are more used to it and have 
adapted to the system. We went through an adjustment.
    The second is that the level of population growth in the 
time period that you talked about is fairly substantial. We 
added more than a million people to this region in a five-year 
time period. We had a decline in employment for a number of 
years, but we have also added employment in the time periods, 
so you're correct, that we have had an economic upturn.
    We believe, as a region, that the most significant factor 
will be the increasing role that this region plays in the 
global marketplace, but for people and goods and that's only 
going to increase in the future and in fact, will increase 
probably at an ever-increasing rate.
    If you add that factor to the traveling behavior of the 
American public and the decline--the FAA recently came forth 
with a national forecast that I believe had our region in the 
year 2030 at about 168 million annual passengers. The demand 
forecast that we did was several years old and we had our 
demand at 170.
    The FAA forecast and our forecasts, both for people and for 
goods, is on target. Let me just conclude in the area of which 
we've had increases over and above what we had forecasted 
previously, so the goods movement side of the equation has 
actually exceeded our forecast, Congressman.
    Mr. Campbell. OK, in terms of the growth that we're 
planning, we talked about--you showed a slide, Mr. Pisano, 
about per capita, but and again this is sort of anecdotal, but 
population growth within the region is, the actual population 
growth over the next 20 to 30 years pretty much can't happen in 
Orange County because it's pretty much built out or in let's 
call it the current urbanized section of Los Angeles County. 
And isn't that population growth pretty much all going to occur 
in Riverside, San Bernardino, Ventura and the inland portions 
of L.A. County such as Santa Clara and Lope Valley, etcetera. 
Isn't that where most of the population growth and therefore 
most of the travel, the air travel growth would come in the 
next----
    Mr. Pisano. If we look at the growth percentages within the 
region we find that L.A. County, the amount of growth in L.A. 
County, interestingly enough, its numbers, its percentage is 
declining and it's almost equivalent to the growth that will 
occur in Riverside and San Bernardino and that Riverside and 
San Bernardino, without question, is the fastest growth area of 
the 6.3 million people, we're forecasting jointly with our 
members, about 3 million of that will occur in the Riverside, 
San Bernardino and Imperial, mainly Riverside and San 
Bernardino, but that there will be growth in Orange County and 
LA County and smaller amounts of growth in Ventura that will be 
about the equivalent to the growth in the entire counties.
    And the issue that--and the reason why I put on the 
forecast and that is based upon surveys that we have been 
conducting and we do conduct periodically on who travels, for 
what reason. And what we're finding is that the propensity to 
fly is still in the western part of our region, that the 
economy base that is in the inland empire does not travel as 
often, primarily given the nature of the industry mix. As you 
noted, the industries I ticked off, tourism, entertainment, 
professional services and higher tech multimedia industries by 
the power tech firms, that industry base has not yet moved to 
the inland empire. We believe over time that it will and it's 
beginning to move, but the propensity to fly figure is the key 
variable, so you can get your hands around, your arms around in 
terms of understanding how do we provide for aviation in a 
regional system.
    Mr. Campbell. OK and the last question in this area for Mr. 
Ritchie. Of the 65 million, whatever it is now, MAP at LAX, how 
much of that is international?
    Mr. Ritchie. Good question. We currently service about 30 
percent of that total as international. One of the key goals to 
the region demand and the dispersing of that demand is, as I 
indicated earlier, we have seen international growth and we 
want to capture that. We don't want to let that go, while at 
the same time the encouraging of the domestic flying seen 
pushing out to some of the airlines or other airports is very 
desirable, so our long-term goal would be 30 percent, 60 
percent in international travel, as our sister airports have 
more of the domestic load.
    Mr. Campbell. So do you see any of the other regional 
airports really as absorbing any of the--the only one that even 
has a terminal now is Ontario, is that correct, of the six that 
we've discussed? I think, so did you see that going, much of 
that going to Ontario or anything or is all the international 
growth in LAX?
    Mr. Ritchie. Well, the passenger rate will be there and we 
certainly want to capture as much as we can in Ontario, but 
Long Beach, John Wayne, while our domestic has been relatively 
flat, we're very confident it will return to 35 percent growth 
rate. So there's been a remarkable growth at Long Beach, John 
Wayne and Burbank.
    Mr. Campbell. Oh right. I understand. I'm just saying if 
we're to take 15 years from now, a snapshot, and say where is 
the international travel flights going out of, almost all of it 
at LAX and then maybe perhaps some at Ontario and that's it, 
right? There's no place else we can put that, is there?
    Mr. Ritchie. I guess our long term goal would be to grow 
and develop Palmdale, but----
    Mr. Campbell. Palmdale, of course.
    Mr. Ritchie. That's some ways off to the accessibility to 
that. But by and large, Ontario is we encourage the push to the 
maximum extent.
    Mr. Ritchie. I didn't hear anyone talk at all today 
anything about March. Is there discussion about March Air Force 
Base?
    Mr. Pisano. Let me just say in our forecast that March 
primarily is an air cargo facility that we've forecasted its 
use, that longer term there could be possibilities of 1 to 2 
million annual passengers and that really depends upon the 
dynamics between San Bernardino International and March Air 
Force and policies that Congressman Calvert talked about with 
respect to military usage. I think that the region is primarily 
going to be in San Bernardino International and then out to 
Palm Springs.
    There is the possibility and we haven't--we have noted in 
smaller utilization possibly at March, but not reliance on it.
    Mr. Campbell. Thank you. Last question I have is for 
Director Kempton. Relative to the Governor's bond proposal, I 
think you talked about the Governor's bond proposal and it 
being less than, only 100 days since I was in the State 
Legislature. I've been trying to follow this from afar. But in 
the proposal that didn't make it or in the agreement that 
didn't make it onto the June ballot, I was trying to look 
through that to see how much of that had anything to do with 
what we're talking about here today which would be aviation 
infrastructure or the infrastructure to transport people to 
aviation infrastructure here in Southern California.
    What's in there? Where the discussions are, what are we 
looking at there?
    Mr. Kempton. Well, in the final package, if you want to 
call it that that was before the Legislature and the closing 
hours of the discussion, there was a package of about $19 
billion that was dedicated for transportation and housing. 
About $17.5 billion or so of that was for straight 
transportation. And again, the biggest complement of those 
dollars that would benefit the aviation program and goods 
movement would have been in the access to ports and airports 
and the connectivity between the two.
    In the Governor's bond proposal, as an example, we had 
included some substantial dollar amounts for access to the 
ports of Long Beach, but also we included a pretty significant 
chunk of money for--proposed for access across the high desert 
on State Route 58, a fairly substantial sum of money going in 
there to provide for that connectivity that Mr. Pisano, Mr. 
Ritchie and me agree is essential to the viability of our 
airport operations.
    No dollars directly related to airport expansion within the 
internal operations of the airports. And the other component 
that I would mention is the public/private partnership effort 
that was touched on by Mr. Pisano, but that was a critical 
element of attracting private investment to California's 
transportation system, not just in our ports, not just on our 
roadways, but also looking to attract private investment for 
airport operations as well into--gaining that authority to 
enter into public/private partnerships, bringing those private 
dollars that would augment the public money to the extent to 
upgrade our transportation infrastructure.
    Unfortunately, that component of the program was not 
included in the final version and Mr. Pisano and I were having 
a brief discussion at the start of it, before the start of the 
Committee hearing to reassure ourselves that we want to see 
that reform included in this overall package. Design/build will 
help us get projects done more quickly, but the public/private 
partnership aspects of the Governor's overall proposal are 
absolutely essential to the future of California's 
infrastructure in my view.
    Mr. Pisano. Could I add to that response, Congressman 
Campbell, and that the Federal leadership that could be 
established through policies and instruments that incentivise 
states to develop the type of funding that Mr. Kempton and I 
are talking about, I believe is absolutely critical.
    We need to go through a transition on how we fund our 
transportation system. The needs are so great that we need new 
financial instruments in the Federal Government and in the 
Federal reauthorization, you had private activity bonds that 
tipped the eligibility. And we suggested a number of other 
provisions being included in the Federal--both through 
authorization and in the tax bills that are under deliberation 
in Congress. If those provisions are in Federal statute, it 
helps us make additional arguments to include those policies at 
the state level.
    So I just want to note that in terms of the region's 
perspective, I note that two-thirds of our investment would 
come from those sources of investments, namely bringing private 
capital to the table. Without it, we're not even going to 
address the issues within our region. I think the equivalencies 
of what we would need to raise the gas tax to make up for that 
private investment, it would be greater than 45 cents per 
gallon.
    Mr. Campbell. Right, thank you. And I just, because I was--
Director Kempton and Mr. Pisano, as I looked at that bottom 
thing as it was coming out, it seemed like the place where we 
have the greatest deficiency in infrastructure is in 
transportation broadly. The term transportation, but yet less 
than a third of the money in that bond issue, as it looked like 
it was agreed to here at the end was going into actual 
transportation uses, be it rail, road, air, whatever. So I was 
disappointed from looking at it from Washington, hoping that 
perhaps as these discussions go forward, whether it's--
obviously, the Federal level would also, but also the state 
level that we move that around a little bit, yes.
    Mr. Kempton. And Mr. Campbell, I know from your times in 
the legislature you're a strong supporter of transportation. 
You were right, the Governor's original strategic growth plan 
did have almost half of the dollars dedicated for 
transportation infrastructure in terms of the $222 billion 
vision that he has for infrastructure development in the State. 
The actual bond proposal which is only a piece of that, the 
final, as I described it, was about $48 billion for levees, for 
education and transportation and as I indicated, $17.5 billion, 
as I recall, was the number that would be put into--dedicated 
specifically for transportation projects.
    Mr. Campbell. Thank you very much, Director Kempton. Mr. 
Chairman, thank you and I yield back.
    Mr. Mica. Thank you. Mr. Calvert?
    Mr. Calvert. Thank you, Mr. Chairman. First, I'd like to do 
a couple of housekeeping--Mary Bono couldn't make it here today 
and she asked me if on the record to mention that Mr. 
Withycombe, first thank him for the support for a new tower at 
Palm Springs Airport. I know that that's on-going and that I 
guess the plan is in effect right now and for the record, when 
do you think that the new tower in Palm Springs could be under 
construction?
    Mr. Withycombe. Well, it's in the FAA's plans to build that 
tower. Obviously, again, budget issues have become a problem 
for construction schedule. The tower, of course, also has a 
Traycon Facility which is a longer-range radar facility that's 
located on the airport as well that controls air traffic within 
about a 50-mile radius, so Palm Springs.
    We have taken action to move that facility to Southern 
California Traycon which is located down in San Diego. That 
facility has been there for well over 12 years. It's exhausted 
its current useful life and it also will be moved to this newer 
facility in Southern California to control traffic in the 
immediate area around the airport within a 50-mile radius.
    The air traffic control tower itself, I understand, was 
under schedule for construction probably within the next four 
or five years. I don't have that figure available right now, 
but I could get it for you, if you wish.
    Mr. Calvert. Certainly, if you could submit that for the 
record, we would appreciate that.
    Next issue, I just want to put aside also on the issue of 
aerobatic flying concerns. I talked a couple of years ago over 
both the Coto de Casa area in South Orange County. I'd 
appreciate your attention to that continuing urbanized area, 
that that's a concern to the residents within that community. 
I'd like to get with you on that to find out what is occurring 
with that.
    One thing, I don't serve on this Committee. I didn't have 
the privilege to get on this Committee when I first came to 
Congress, but I chair the Space and Aeronautics Committee in 
the House and Mr. Mica and I share some jurisdiction as far as 
the new air traffic control system that we're trying to get 
implemented in this country, and of course, it has 
international ramifications, Mr. Withycombe and I understand 
that some delays--we had quite a little gathering the other day 
in Washington when we were all out, the Secretary, Secretary of 
the Air Force and Mr. Mica and myself and others that they're 
going to move as rapidly as possible to move to this new 
system.
    So from your perspective, you're in one of the most 
congested areas, not just in the country, but in the world, how 
important do you see in getting this system implemented as 
quickly as possible for the air traffic control management here 
in the United States and worldwide?
    Mr. Withycombe. Well, as I mentioned in my testimony, we do 
have some time to get ahead of this issue because of the levels 
of traffic that we're currently experiencing. But it is a very 
important procedure, not only from a standpoint of operational 
efficiencies, but also from the environmental benefits that we 
think will come from this.
    Being able to redesign some of the routes that have been 
place for many, many years in the Los Angeles basin will give 
us an opportunity to use new technology such as satellite 
guidance and also to take advantage of new technology that's in 
the aircraft that will be built in a newer environment these 
days. Technologically, they're more advanced than they were 
years ago.
    We find that we can select routes that will be more 
beneficial to people on the ground, reducing noise levels, and 
experience that they may have by overflights in their 
communities. So these are all important issues and we do intend 
to move forward with this as fast as we can.
    Mr. Calvert. That's great. And the technology, as you know 
it exists, fly by wire systems, we're working on new 
technology, hush kits for engines, assisting new engine design, 
that would certainly help in these urbanized areas.
    One thing I want to get to and John and I obviously 
represent adjacent Districts, but we hear probably, I suspect 
you do, as well as I do, more about transportation than most 
any other issue in this region, at least in my area. A lot of 
my constituents drive to Orange County to go to work, so maybe 
a little bit more so here than in Orange County, but I would 
say anecdotally to Mr. Ritchie as one of the reasons why LAX 
has not experienced a rebound as rapidly as say Ontario or 
Orange County or other airports is you can't get there. I can 
tell you that from the perspective of a person who travels 
every week and about half the time out of LAX and to plan to 
get to Los Angeles Airport you have to get up very early in the 
morning, 4 in the morning to get through the 91 freeway in 
order to get down to it, or very late at night or on the 
weekends. And so I suspect that is the reason why LAX has not 
experienced the increase in travel, to get back to pre-9/11, 
is--this is anecdotal information, but I suspect is probably 
correct, is a big part of that.
    So it gets back to ground transportation and that's 
important because and all of the ground transportation has an 
effect. If you look at the Port of Long Beach, Los Angeles and 
the effect of trains coming out of there and Mr. Pisano, I'm 
looking at you on this one, coming down through the Inland 
Empire, through Orange County, through the Inland Empire and 
down through the Cajon Pass, this is having just an on-going 
effect on traffic flows through our entire region. And ACE, as 
we call it affectionately, the Alameda Corridor East, is 
something that's important.
    In this region, in Riverside County, we put an additional 
fee for every residential unit that's filled, every cost of 
construction on industrial and commercial and office projects, 
a significant fee. A lot of regions have not done that as yet, 
along with our sales tax fee, to match rather than coming in. 
We had a discussion about container fee. It may not be in 
direct venue of air traffic, it does have an effect because it 
affects the traffic going in, Mr. Chairman, to Los Angeles and 
getting to that airport or to Ontario Airport or to any other 
airport. And so I just want to get, for the record, any 
information you can help us with as far as how you can help 
bring some local revenue to the table outside of Federal 
dollars.
    As Mr. Mica mentioned, we're short of funds in Washington, 
D.C., so we need some help.
    Mr. Pisano. Congressman Calvert, there were several 
questions in your last question. Let me just deal with what I 
interpreted to be the first one and that is how do we deal with 
the east-west and that is the east-west movement within our 
region?
    As we've pointed out in response to Congressman Campbell, 
there is substantial growth in the east and furthermore, 
there's movement of employment to the eastern part of our 
region. In fact, Riverside, San Bernardino area is one of the 
fastest job growth areas. It's primarily in the logistics 
industry, so movement of people through the 91 corridor or 
between Riverside and Orange County, we have called for a new 
corridor. One of the alternatives being considered is an 
investment concept that you have requested the region look at 
and that the Orange County Commission and that the Riverside 
Commissioner looking at that alternative, primarily would be 
far better than the other alternatives in that corridor.
    With respect to the funding system and the question of the 
funding system, we conducted what we called a port elasticity 
study. What is the capacity of this region to put charges on 
the movement of goods through one form of feeder or another and 
divert traffic. In the course of conducting this, that study, 
the view of Secretary Mineta and his entire staff is that there 
is enormous productivity efficiencies that are gained to the 
Nation because of the role that we're playing in the movement 
of goods. I'm going to add airport goods as well as port goods.
    There's are enormous savings that are derived to American 
consumers and to the shippers and for the retailers that are 
bringing imports into this region. And we believe that a 
business plan, let me emphasize the importance of dynamics, 
that these investments be conducted on a business plan basis 
and that is an investment can be made that demonstrates 
productivity, efficiency and cost saving and value to the users 
and that they will, in fact, pay for utilization of that 
investment. If one creates the right kind of transportation 
investment, it creates the right partnership, it is the model 
that we base the Alameda Corridor on. We believe that that 
investment strategy can generate anywhere from $26 to $36 
billion that can help us address the goods movement, port, 
airport access as well as air quality mitigation.
    And there will be a willingness on the part of the private 
sector to participate in an investment strategy.
    The tools that we need to accomplish such a program are the 
following: it's very difficult in the private sector who will 
not invest in getting through the environmental clearance 
process. They feel that's too risky and they're expecting 
government to pay for that process.
    Secondly, we need to bring the what are called financing 
packages to the market. If we have the investment seed capital 
to undertake that activity, it would help us bring those 
projects to market. Secondly, Federal incentives, tax or other 
types of underwriting investments would be helpful for us to 
enable those projects to materialize and to complete the need. 
If we do not have legislation, we can't even start on these 
projects, that's why Federal partnership with State enabling 
legislation, coupled with putting together investment programs 
will enable to deal with the goods movement.
    Part of the access system that I testified to the Committee 
on on ground access to airports is based on the same model, 
Congressman.
    Mr. Calvert. Thank you. I think I just have one other 
question. And that's on the issue of shorter flights. Is there 
any information out there that you can share with us, maybe Mr. 
Ritchie or Mr. Withycombe, on flights to say to Vegas or 
Phoenix, San Francisco, Bakersfield, these small airlines? How 
many gates do they tie up? I'm just curious in the scheme of 
things. Is that 10 percent of the business, 5 percent?
    Mr. Ritchie. I think, Congressman, I think the answer 
lies--you're correct. A lot of the commuter gates are tied up. 
For example, at LAX, we have 113 contact gates for traditional 
aircraft, domestic, international flights. We have another 50 
gates that are dedicated to remote gates, commuter routes. Our 
goal is that while, as I stated earlier, our goal would be for 
the commuter flights to migrate to some of the other region's 
airports. We certainly still need to maintain that capability 
for connecting flights from LAX to other shorter----
    Mr. Calvert. The reason I bring that up is if, in fact, 
down the road if some kind of, Mr. Pisano brought up high speed 
rail activity is constructed say between here and Vegas, 
Phoenix and San Francisco and San Diego, not only would that 
help alleviate some of the surface traffic, but would that also 
alleviate some of the future demand that you might have for 
airport growth?
    Mr. Pisano. We have looked at the issue of such a system 
that we have proposed for Southern California and we believe it 
can reduce anywhere from up to 8 percent of the trips going 
into LAX that are intra-regional, that are accessing that 
airport primarily because they're making connections to other 
international or national and that that can be part of the 
relief in meeting our long-term demand.
    Mr. Calvert. Based on Mr. Ritchie's testimony, I would 
think that's on the low end, 8 percent would be on the low end. 
At least 50 gates tied up doing commuter traffic.
    Mr. Pisano. Some of those trips would be outside of our 
region, Congressman. I'm just talking about the San Diego 
within our region.
    Now the other issue that we have looked at and that is what 
would a high-speed system within Northern California to 
Southern California from Las Vegas to Southern California, what 
impact would that have on aviation demand? And we have looked 
at those numbers and they would raise a number to a higher 
level.
    The question on that is is we have not been able to find a 
business plan model to make those investments work yet. But let 
me underscore, it's absolutely critical for us to look at 
transportation investments in the future based on performance 
and one of the performance indicators being if capacity can 
have a return on investments so that users will pay more. And 
we have not yet been able to demonstrate that a Las Vegas to 
Los Angeles or Northern California to Los Angeles investment 
fits in that pattern. Long term, I believe it will. And if you 
look at the long-term growth patterns for this region, for this 
State, you will find that within--by the year 2050, Las Vegas 
will be considered part of the economic base of LA and in that 
sense it will be economically viable.
    Mr. Calvert. Thank you, Mr. Chairman.
    Mr. Mica. Thank you, just a couple of quick questions for 
Mr. Ritchie. One, I had information that Los Angeles World 
Airports has indicated a desire to create a larger regional 
aviation authority that extends beyond their current structure.
    What's the status of that proposal?
    Mr. Ritchie. Thank you. As a regional airport authority, we 
have always maybe boasted on the small scale within the City of 
Los Angeles; we were our own airport authority because we had 
three commercial airports and we had things we could influence 
around that small sphere.
    We're supportive. LAWA, LA World Airports, is supportive. I 
sense the City of Los Angeles is supportive. That larger body 
needs to define, to have the leadership role, but as we move 
outside our jurisdiction into Burbank, Long Beach, Orange 
County, John Wayne, we need a little assistance in that regard.
    There was a body that was previously active, Southern 
California Regional Airport Authority that is a good model to 
jump start this. As Mr. Pisano points out, consortium is 
another approach. So we may be able to provide that jump 
starting of a process by virtue of the size of LA World 
Airports, but I would be remiss if I were suggesting we could 
influence the size of Bob Hope or other airports.
    Mr. Mica. Mr. Pisano?
    Mr. Pisano. Mr. Chairman, on that issue we commissioned a 
study by Steve Ary, a professor out of UC San Diego to look at 
the experience of regional airport structures across the 
country and we examined 10 such efforts. We looked at what 
worked, what didn't work, what steps were important in 
successfully developing more effective regional systems, 
including the system and let me just note in the Washington, 
D.C., the New York area, etcetera.
    The basic recommendation of our report was that in order to 
move this issue in an expedited way that we, in fact, encourage 
LAWA to operate as a regional airport system and not have three 
separate airports, but operate the airports as a system and 
then secondly, to start developing the necessary agreements and 
arrangements. And as we develop confidence and success in 
building such a system that that may evolve into an authority.
    And the reason we suggested a jump start on this was that 
15 years ago, our organization, along with some of the other 
entities within the region, established the Southern California 
Regional Airport Authority and for whatever reason we weren't 
able to make such a regionalized system work. And the 
conclusion that we learned and by the way, it was a learning 
experience we derived from some of the other regions that we 
looked at is that you need to have your key core aviation 
system operating if they have multiple airports, operating 
those airports as one system.
    And in that respect, some of the Federal policies in terms 
of how these systems are developed, in terms of how we looked 
at the financing structure at airports at the Federal level, 
could accelerate the development of these regional structures.
    Mr. Mica. Thank you. Final question, Mr. Ritchie. There 
have been some problems with reaching agreement on a final LAX 
Master Plan. Maybe you could give us a quick update on where we 
are with that effort?
    Mr. Ritchie. Yes, Mr. Chairman, I'd be glad to. That's a, 
from our vantage point, a success story. As we previously 
mentioned, we completed the Federal and State of California 
Environmental Approval for the LA Master Plan. There were 
components in that the City Council referred to as yellow Light 
Projects and asked that we conduct additional study. That was 
tied up and incidental to the settlement agreement of which we 
agreed to a report and analyzing those, turning them green or 
red, as the case may be. I think there was a preponderance on 
those projects in turning red. Nonetheless, the remaining 
projects referred to as green light projects were more readily 
received, although they were basically tied to safety and 
security issues, so we have started just in the last week a 
collaborative method that's shaping, reshaping the Master Plan 
as we note.
    So the good news is that we're moving forward. We're moving 
forward on a smaller scale than the total program envisioned, 
but we're moving forward with community support.
    Mr. Mica. Well, thank you. Do either of the Members have 
additional questions? Mr. Campbell? Mr. Calvert? No.
    Well, I want to thank the witnesses today for their 
testimony and participation on the Subcommittee hearing and 
also my two colleagues, Mr. Campbell, a member of the T and I 
Committee and Mr. Calvert who was kind enough to host us, one 
of the senior Members in Congress, and he made reference to our 
joint efforts to try to improve our national aviation air 
system. We share a number of goals in that regard, looking at 
the whole country. Looking at this region is particularly 
important, as I said in my opening comments. What happens in 
this area in region is not only critical to its future economic 
growth and to accessing air transport for the future, but it's 
also important to our nation's air transportation system.
    I sense some very good cooperation from various entities in 
trying to help us plan not only for the near future, but for 
the long-term needs. We certainly have some challenges and some 
of the local communities are faced again with difficult 
decisions, but also we're basically maxing out in some of our 
capacity in some of those local airports as we can see from the 
testimony and what we picked up in our visit, not only today, 
but in past visit or two here.
    So I think rolling up our sleeves and all working together, 
we can meet some of those challenges and I appreciate the 
cooperative effort in making this hearing possible and also 
successful.
    As I indicated too at the beginning of the hearing, we will 
leave the record open. Anyone, organizations or individuals, or 
representatives of governmental agencies who would like to 
submit additional testimony or commentary or information to the 
record can do so, directed to the Chair, Mr. Campbell or Mr. 
Calvert. Without objection that is so ordered and the record 
will be left open for a period of two weeks.
    There being no further business to come before the House 
Aviation Subcommittee, I declare this meeting adjourned. Thank 
you.
    [Whereupon, at 12:12 p.m., the hearing was concluded.]

    [GRAPHIC] [TIFF OMITTED] T8273.001
    
    [GRAPHIC] [TIFF OMITTED] T8273.002
    
    [GRAPHIC] [TIFF OMITTED] T8273.003
    
    [GRAPHIC] [TIFF OMITTED] T8273.004
    
    [GRAPHIC] [TIFF OMITTED] T8273.005
    
    [GRAPHIC] [TIFF OMITTED] T8273.006
    
    [GRAPHIC] [TIFF OMITTED] T8273.007
    
    [GRAPHIC] [TIFF OMITTED] T8273.008
    
    [GRAPHIC] [TIFF OMITTED] T8273.009
    
    [GRAPHIC] [TIFF OMITTED] T8273.010
    
    [GRAPHIC] [TIFF OMITTED] T8273.011
    
    [GRAPHIC] [TIFF OMITTED] T8273.012
    
    [GRAPHIC] [TIFF OMITTED] T8273.013
    
    [GRAPHIC] [TIFF OMITTED] T8273.014
    
    [GRAPHIC] [TIFF OMITTED] T8273.015
    
    [GRAPHIC] [TIFF OMITTED] T8273.016
    
    [GRAPHIC] [TIFF OMITTED] T8273.017
    
    [GRAPHIC] [TIFF OMITTED] T8273.018
    
    [GRAPHIC] [TIFF OMITTED] T8273.019
    
    [GRAPHIC] [TIFF OMITTED] T8273.020
    
    [GRAPHIC] [TIFF OMITTED] T8273.021
    
    [GRAPHIC] [TIFF OMITTED] T8273.022
    
    [GRAPHIC] [TIFF OMITTED] T8273.023
    
    [GRAPHIC] [TIFF OMITTED] T8273.024
    
    [GRAPHIC] [TIFF OMITTED] T8273.025
    
    [GRAPHIC] [TIFF OMITTED] T8273.026
    
    [GRAPHIC] [TIFF OMITTED] T8273.027
    
    [GRAPHIC] [TIFF OMITTED] T8273.028
    
    [GRAPHIC] [TIFF OMITTED] T8273.029
    
    [GRAPHIC] [TIFF OMITTED] T8273.030
    
    [GRAPHIC] [TIFF OMITTED] T8273.031
    
    [GRAPHIC] [TIFF OMITTED] T8273.032
    
    [GRAPHIC] [TIFF OMITTED] T8273.033
    
    [GRAPHIC] [TIFF OMITTED] T8273.034
    
    [GRAPHIC] [TIFF OMITTED] T8273.035
    
    [GRAPHIC] [TIFF OMITTED] T8273.036
    
    [GRAPHIC] [TIFF OMITTED] T8273.037
    
    [GRAPHIC] [TIFF OMITTED] T8273.038
    
    [GRAPHIC] [TIFF OMITTED] T8273.039
    
    [GRAPHIC] [TIFF OMITTED] T8273.040
    
    [GRAPHIC] [TIFF OMITTED] T8273.041
    
    [GRAPHIC] [TIFF OMITTED] T8273.042
    
    [GRAPHIC] [TIFF OMITTED] T8273.043
    
    [GRAPHIC] [TIFF OMITTED] T8273.044
    
    [GRAPHIC] [TIFF OMITTED] T8273.045
    
    [GRAPHIC] [TIFF OMITTED] T8273.046
    
    [GRAPHIC] [TIFF OMITTED] T8273.047
    
    [GRAPHIC] [TIFF OMITTED] T8273.048
    
    [GRAPHIC] [TIFF OMITTED] T8273.049
    
    [GRAPHIC] [TIFF OMITTED] T8273.050
    
    [GRAPHIC] [TIFF OMITTED] T8273.051
    
    [GRAPHIC] [TIFF OMITTED] T8273.052
    
    [GRAPHIC] [TIFF OMITTED] T8273.053
    
    [GRAPHIC] [TIFF OMITTED] T8273.054
    
    [GRAPHIC] [TIFF OMITTED] T8273.055
    
    [GRAPHIC] [TIFF OMITTED] T8273.056
    
    [GRAPHIC] [TIFF OMITTED] T8273.057
    
    [GRAPHIC] [TIFF OMITTED] T8273.058
    
    [GRAPHIC] [TIFF OMITTED] T8273.059
    
    [GRAPHIC] [TIFF OMITTED] T8273.060
    
    [GRAPHIC] [TIFF OMITTED] T8273.061
    
    [GRAPHIC] [TIFF OMITTED] T8273.062
    
    [GRAPHIC] [TIFF OMITTED] T8273.063
    
    [GRAPHIC] [TIFF OMITTED] T8273.064
    
    [GRAPHIC] [TIFF OMITTED] T8273.065
    
    [GRAPHIC] [TIFF OMITTED] T8273.066
    
    [GRAPHIC] [TIFF OMITTED] T8273.067
    
    [GRAPHIC] [TIFF OMITTED] T8273.068
    
    [GRAPHIC] [TIFF OMITTED] T8273.069
    
    [GRAPHIC] [TIFF OMITTED] T8273.070
    
    [GRAPHIC] [TIFF OMITTED] T8273.071
    
    [GRAPHIC] [TIFF OMITTED] T8273.072
    
    [GRAPHIC] [TIFF OMITTED] T8273.073
    
    [GRAPHIC] [TIFF OMITTED] T8273.074
    
    [GRAPHIC] [TIFF OMITTED] T8273.075
    
    [GRAPHIC] [TIFF OMITTED] T8273.076
    
    [GRAPHIC] [TIFF OMITTED] T8273.077
    
    [GRAPHIC] [TIFF OMITTED] T8273.078
    
    [GRAPHIC] [TIFF OMITTED] T8273.079
    
                                    

</pre></body></html>
